CERTIFICATE OF SERVICE
NO. TBD
Stephanie G. Clifford
Petitioner,
v.
Donald J. Trump
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
STEPHANIE G. CLIFFORD PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Charles J. Harder
Harder LLP
132 S. Rodeo Dr., Fourth Floor
Beverly Hills, CA 90212
(424) 203-1600
charder@harderllp.com
Counsel for Donald J. Trump

Lucas DeDeus

October 29, 2020
SCP Tracking: Brewster-2617 E. 21st Street-Cover White

